c'


     I,,    "




                      ALIEN VERI 
       FICA TION

                       FOR           ENTITLEMENTS




           OFFICE OF INSPECTOR GENERAL

           OFFICE 0' ANALVSI8 AND IN8PECTION8





                                             FEBRUARY 1988

                  ALIEN VERIFICATION FOR ENTITLEMENTS

                     A NATIONAL PROGRA INSPECTION




RICHAD P. KUSSEROW
INSPECTOR GENERAL                                   FEBRUARY 1988




OAI-86-02-00003
~\




                                TABLE OF CONTENTS





                                                                 ~
     EXECUTIVE SUMY                                               i

     INTRODUCTION                                                 1

     FINDINGS                                                     3

          A Majority Of Aliens Are Eligible For Benefits          3

          Most States Check Alien Status Manually                 4

          INS Offers SAVE -- An Automated Alternative             5

          Extent Of The Problem Of Ineligible Aliens Not Clear    6

          State Responses To SAVE                                 9

          Advantages Of SAVE                                     10

          Limitations Of SAVE                                    13

          Why states Are Reluctant To Use SAVE                   17

     CONCLUSIONS                                                 18

     APPENDIX: Comments On Draft Report And OIG Responses        19

C
    \




                                  EXECUIV SUMY

        Purcose And Background

        This inspection resulted from the continuing interest of the

        Office of Inspector General in encouraging automated front-end

        eligibility verification for entitlement programs. The Inspector

        General became concerned that few state human services agencies,

        in their claims processing for this Department i s programs, were

        availing themselves of an automated alien verification system,

        known as SAVE (Systematic Alien Verification for Entitlement),

        developed by the Immigration and Naturalization Service (INS) and

        made available in the early 1980 IS.


        The inspection sought to (1) obtain States i assessment of the
        strengths and weaknesses, as well as the advantages and

        disadvantages of SAVE; (2) identify obstacles to the expanded use

        of SAVE; and (3) provide feedback to the Department, INS and

        other departments administering programs to which SAVE could be

        applied as a voluntary verification system.


        A check of alien status (whether done manually or by automated

        techniques) is standard practice in the Aid to Families With

        Dependent Children, Food Stamps, Medicaid and Unemployment

        Insurance programs. Eligibility requirements for these programs

        limit eligibility to aliens who are lawfully admitted for

        permanent residence or classified as permanently residing under

        color of law (PRUCOL).


        The recently enacted Immigration Reform and Control Act of 1986

        (IRCA) includes a provision requiring the use of SAVE by State

        agencies administering six programs including those covered by

        this inspection. Under certain circumstances, the law permits

        State agencies to obtain a waiver allowing them to use an

        alternative system.


        Methodoloav
        Site visits were conducted in six States, (California, Colorado,

        Florida, Illinois, New York and Texas), selected on the basis of

        the estimated number of their illegal aliens and their experience

        with SAVE. Two other States (Washington and Wisconsin) with SAVE

        experience were contacted by phone. All but Wisconsin ranked

        among the top 12 States in terms of undocumented alien

        population.
        The study focused on four Federal entitlement programs

        administered by state agencies: Aid to Families with Dependent

        Children (AFDC), Medicaid, Food Stamps and Unemployment Insurance

        (UI) .

                                        i
"




    In each of the visited states, discussions were held with: staff

    of the Governor's Office, INS District Office, Federal Regional

    Offices of the Departments of Health and Human Services (HHS) and

    Labor (DOL), State and local agencies, and advocacy groups.

    Findinqs
    o	   Most state agencies are satisfied with using their
         traditional manual methods of verifying alien status of
         applicants for 
 human services and unemployment benefits.

         They cited low quality control error rates as evidence of

         success.
    o	   While states were slow to participate in SAVE, UI agencies
         in eight States and the District of Columia had early pilot
         projects as did human services agencies in five States.
         More recently, 13 other agencies in six more states and
         three jurisdictions have begun to participate, partly in
         anticipation of IRCA' s requirement to do so.

    o	   About half the agencies with early pilot projects have
         continued them. They cited as reasons quick response time
         for aliens in INS' data base, savings greater than costs and
         a deterrent effect on other ineligible applicants. Although
         most agencies with data on SAVE's cost and benefits reported
         that it saved more than it cost, the cost data were
         incomplete and savings were not compared to traditional
         manual methods. Consequently those agencies without SAVE
         experience, as well as a few with such experience, have been
         skeptical of the projected net savings reported by INS and
         States.
    o	   Most officials pointed out weaknesses in the SAVE' data base.
         Those in human services agencies were particularly concerned
         that SAVE is not helpful in providing information to allow
         them to make determinations on those aliens classified as
         permanently residing under color of law (PRUCOL).
    o	   In a substantial numer of cases, the automated SAVE
         response is not sufficient, and agencies have to then resort
         to a time-consuming, manual secondary verification process.
    o	   Whether or not their State had experience with SAVE, it was
         the clear consensus of respondents that SAVE is a sound
         concept. with substantial improvements, many hoped it would
         save program dollars and speed up service.
    Conclusions
    As Federal and State agencies implement the SAVE provisions of

    IRCA, an opportunity exists for them to work closely with INS to

    enhance the SAVE system and make it more attractive to States.


                                   ii

~,




     Contacts with INS officials during the inspection revealed a

     willingness 'to make improvements to better meet user needs. INS

     has establ ished an interagency task force for that purpose.

     Because the law is so new, no recommendations are included in

     this report. However, it appears that Federal user agencies

     would benef it from a review of their common information needs

     relative to the SAVE system. Over time, an improved SAVE system

     could be a useful tool for strengthening program integrity.

     Comments From Federal Agencies


     Comments on the draft report were received from the Assistant

     Secretary of Planning and Evaluation (ASPE), the Administrator of

     the Family' Support Administration (FSA), the Administrator of the

     Health Care Financing Administration (HCFA), the Commissioner of

     Social Security (SSA) -- all wi thin HHS; and outside the

     Department, from the Inspectors General of the Departments of

     Labor (DOL), Education (ED), and Housing and Urban Development

     (RUD); and from the Commissioner of the Immigration and

     Naturalization Service. .

     Major comments by ASPE, DOL and FSA questioned the accuracy of

     estimates of cost savings due to SAVE made by INS, the

     Congressional Budget Office and some State agencies with SAVE

     projects. They felt that data on costs were incomplete and that

     savings from SAVE were not compared with savings from traditional

     agency methods of verification. In response, we added a new

     section qualifying the cost s~vings findings.

     Conflicting comments by FSA and INS on the relevance of including

     PRUCOL information in the SAVE response suggest that State

     agencies and INS judge the effectiveness of SAVE by different

     criteria. We did not change our finding that agencies saw the

     omission of PRUCOL information to be a serious limitation.

     Other comments related to problems and progress with secondary

     verification, the adequacy of traditional agency verification

     methods, and other experiences with SAVE. A number of

     recommendations were made for increasing the utility of SAVE.

     Details of the comments and of our responses are described in the

     Appendix.




                                    iii

                            INTODUCTION

PurDose And Backaround

In recent years, the use of automated techniques such as computer

matches and screens to assure the integrity of payments has grown

steadily in state programs receiving Federal funds. Much of this

technology has previously been directed at preventing duplicate

payments or verifying income eligibility for means-tested

entitlement programs.


More recently, automated methods have also been applied to the

task of verifying eligibility based on alien status. In 1983,

the Immigration and Naturalization Service (INS), based on its

experiences in the early 1980's with pilot projects in,three

States (California, Colorado and Illinois), began promoting State

use of its automated system called SAVE (Systematic Alien

Verification for Entitlement).


Because few state human services agencies have utilized SAVE to

verify alien status of applicants for Aid to Families with

Dependent Children (AFDC), Food Stamps and Medicaid, the

Inspector General initiated this inspection to find out the

reasons.
The inspection had three obj ecti ves:
           To gain a current overview of perceived strengths and

           weaknesses, as well as advantageous and disadvantages,

           of automated alien status verification systems;


           To identify obstacles to human services agencies

           establishing or expanding such automated systems; and


           To give feedback to HHS, INS and other departments

           administering programs to which SAVE is applicable.

While completion of this inspection was pending, the Immigration

Reform and Control Act of 1986 (IRCA) was signed into law as

Pulic Law 99-603. One of its provisions to control illegal
immigration is a requirement that State agencies verify with INS

the immigration status of alien applicants for AFDC, Medicaid,

Food Stamps, UI, and Housing and Educational Assistance benefits.

This is to be done through an "automated or other system

(designated by the Service for use with States)..."

The Secretary responsible for any of these programs may grant

States a waiver permitting them to use an alternative to such an

automated or manual version of SAVE if one of the following

conditions are met: (a) an equally effective and timely

                                  1
"
    "




        alternative system exists; or (b) the costs of administering the

        SAVE system ex~eed the estimated savings.

        These recent developments provide a new context for reviewing the

        resul ts of this inspection.


        Methodology
        Site visits were conducted in six States (California, Colorado,

        Florida, Illinois, New York and Texas) selected on the basis of

        the estimated number of illegal aliens and experience with SAVE.

        Two other states (Washington and Wisconsin) with SAVE experience

        were also contacted by phone. All but Wisconsin ranked among the

        top 12 statés in terms of undocumented alien population.


        Prior to formal data collection, discussions were held with

        Federal officials from INS, HHS, the Departments of Labor (DOL),

        Agriculture (USDA), and Education (ED), and with advocacy groups

        to iqentify the issues. The data collection instruments were

        pre-tested with State and local officials in Connecticut and New

        York.
        The study focused on four Federal entitlement programs

        administered by State agencies: two are HHS programs - AFDC and

        Medicaid; one' is a USDA program - Food Stamps; and one is a DOL

        program - Unemployment Insurance (UI). While the IG' s primary

        concern was with AFDC and Medicaid, USDA's Food stamp program was

        included because its State administration and local eligibility

        determination process is frequently linked to AFDC. DOL's UI

        program was included because it has had wider experience with

        SAVE .

        In each of the States visited, discussions were held with: a
        representative of the Governor's Office, INS District Office

        staff, Federal Regional Office staff in HHS and DOL, State and

        local agency officials and eligibility workers in UI and. human

        services programs, and with representatives of one or more

        advocacy groups.
        A total of 328 respondents were contacted in the capital cities

        of the eight states, and in Los Angeles, San Francisco, Houston,

        Dallas, Chicago, Miami, Atlanta, New York City, Washington, D. C. ,
        and Hartford and Bridgeport, Connecticut. A special sub-study of

        conducted. .
        l4 additional advocacy groups in New York City was also





                                         2

~,




                                  FINDINGS
               A MAORITY OF ALIENS AR ELIGIBLE FOR BENEFITS


     Prior to 1972 i no Federal eligibility requirements based on

     citizenship or alien status. existed for AFDC, Medicaid, Food

     Stamps and UI programs. Between 1972 and 1976, however, laws

     bearing on alien eligibility were enacted for all these programs,

     except Medicaid. While alien eligibility regulations were

     adopted for Medicaid in 1973 without a statutory basis, the

     recent IRCA legislation established such requirements by statute.

     The requirements established in the 1970' s for the AFDC, Food

     Stamps and UI programs each identified two categories of aliens

     who, if otherwise eligible, are entitled to benefits:

        . ­
   immigrant aliens lawfully admitted for permanent

               residence; and,

               aliens "permanently residing under color of law"

               (PRUCOL) . .

     All other aliens are considered ineligible. They include

     nonimmigrant (i.e., tourist~, students and others lawfully

     admitted on a temporary basis) and those undocumented aliens who

     do not' qualify "under color of law."
     Most aliens in this country are eligible for benefits, since a

     majority (about three-fifths, according to recent studies) are

     immigrants lawfully admitted for permanent residence. Aliens in

     the category of "permanently residing under color of law," or

     PRUCOL, are'also eligible for benefits. This category, however,

     is open to interpretation and is confusing to eligibility workers

     and aliens alike. Although originally defined by the four

     programs in nearly identical terms, PRUCOL has since come to be

     defined differently for each program. According to agency

     officials; this makes it difficult for local eligibility workers,

     especially those in human services agencies who handle  more than

     one program, to determine PRUCOL eligibility. In general though,



     deportation. .
     PRUCOL includes those .in the u.s. since January 1, 1972 (updated

     from 1948 by IRCA), those designated as refugees, parolees and

     asylees, and certain persons for whom INS has withheld



     Over the last 8 years, a series of Federal and State court cases,

     aimed at clarifying the definition of PRUCOL, have further

     complicated the question of who is eligible. For example, in

     response to a 1984 Federal court order in Berger v. Schweiker,

     the Social Security Administration (SSA) developed an even longer

     list of aliens falling within an expanded definition of PRUCOL

     for the Supplemental Security Income (SSI) program. These

     include undocumented aliens in the U. S. with the knowledge and


                                      3

~,
     "




         permission of 
    the INS and whose departure INS does not

         contemplate enforcing.
         While these cases have usually expanded the definition to make

         more aliens eligible for the various programs, they have resulted

         in differences among the programs. Until January 1987, HHS' HCFA

          (Heal th Care Financing Administration) even had two different
         definit~ons of PRUCOL eligibility for Medicaid depending on

         whether an applicant'~ eligibility derived from the alien's SSI

         or AFDC eligibility. However, as tne result of the Omnibus

         Reconciliation Act of 1986 (OBRA-86) which permitted Medicaid

         eligibility for PRUCOL applicants, HCFA has applied the broader

         SSI categories of PRUCOL to all Medicaid applicants since January

         1987. Aiiens legalized under IRCA will also be eligible for

         Medicaid after 5 years. There are two exceptions to the 5-year

         ban: (1) those under 18, Cuban-Haitian entrants, or aged, blind

         and disabled, and otherwise eligible, may receive all Medicaid

         services right away; and (2) others legalized but not in these

         groups may receive emergency services or services for pregnant

         women.

                           MOST STATES CHECK ALIEN STATUS MAALLY
         All legal aliens are required to carry documentation issued by

         INS. Persons lawfully admitted for permanent residence are
         generally issued a "green card" (Form I~151 or I-551), bearing an

         "A" (.alien) number. Nonimmigrant aliens and other lawfully

         admitted aliens, such as refugees, are generally required to

         carry an arrival and departure record, Form I-94. Some other

         aliens known to INS may be required to carry special INS

         documents such as letters.


         Intake or eligibility workers in public assistance agencies

         gerierally accept any "green card" which looks legitimate as
         evidence of alien status. Other INS documents, especially the

         I-94, are reviewed according to written procedures prescribed by

         Federal and State agencies. If unable to produce an acceptable

         document ~ the al ien is either sent home or to INS to get it.


         Many agencies not using the automated SAVE system nevertheless

         have some contact with INS, either by phone or by mail. This

         varies greatly by locality and often depends on the relationships

         which individual workers or supervisors have with INS. Although

         only INS is authorized to determine whether or not an applicant's

         claim to legitimate alien status is valid, it is the state

         agency's responsibility to make the decision on alien eligibility

         using all data available.





                                             4
                          INS OFFERS SAVE -- AN AUTOMATED ALTERNATIVE

since the 1970's, INS has been developing automated systems to

manage its data on aliens, and has given a high priority to

making part of its alien data base available to State or local

agencies for use in verifying the eligibility of alien

applicants. Since the early 1980's, INS has succeeded in getting

some State, city and county agencies to undertake pilot proj ects .
To encourage more State entitlement agencies to use its alien

data base, INS formalized these automated verification activities

in 1984 under the heading of SAVE (Systematic Alien Verification

for Entitlement). SAVE involves the systematic use of a

terminal, either in an INS District Off ice or in a State agency,

to access the INS alien file to determine an applicant's alien

status.
Under a model SAVE project, prior to IRCA, a State agency entered

into a formal agreement with INS and installed in its office a

terminal hooked up to INS' computer system. Using this, the data

entry worker then keyed in an "A-number" (INS' alien registration

number) and, in a matter of seconds, received a response on the

Alien Status Verification Index (ASVI) display, which includes

the following limited number of data 
              fields:
            o          A-number
            o          Last and first names
            o	         Social security number (not currently used because many
                         SSNs are not in the data base)
            o          Date and country of birth
            o          Date and port of entry
            o          File control office
            o          Class of admission (e.g., refugee)
            o          Date file opened
            o          Alien'status (e.g., lawful permanent resident ­
                       employment authorized) and action needed, if any

                       (e.g., institute secondary verification) .


The SAVE system can only be accessed by the A-numer listed on

the green card or on some I-94s. If the response shows that INS

has no record of the A-number, or that the alien is not listed as

a lawful' permanent resident, it indicates that a secondary

verification should be initiated. The agency then fills out INS'

Form G-845 (Document Verification Request) and mails it, together

with photocopies of the applicant's immigration documents, to the

nearest INS District Office. After INS staff review the

documents, make a computer check against the more comprehensive

Central Index (with its 108 data elements) and/or institute a

manual check against paper files, the results are mailed back to

the State agency. If the data do not support the status claimed



                                               5

by an applicant, the alien may present his/her case to the

entitlement agency before a final determination is made.

Most existing SAVE projects in state or local agencies do not

conform entirely to this model. The three maj or variations are:


     ( 1)   The state or local agency mails a list of alien
            applicants to the INS District Office for automated


                          ,.
            verification by INS staff, and the results of automated
            verification are mailed back to the agency.

     ( 2)   INS picks up aiien applicant lists from the agency for
            automated verification by INS staff. '

     (3 )   A State or local agency staff person sits at an INS
            District Office terminal and verifies alien status
            through an INS computer.
Since IRCA was enacted, INS' has designated six options for State

agencies to consider in implementing the Act's requirement that

they verify each alien's immigration'status through an INS

designated system. These options' range from various automated

techniques nsing either a computer terminal or a touch-tone

telephone ,to manual or mail methods in limited circumstances.

       EXTENT OF THE PROBLEM OF INELIGIBLE ALIENS ,NOT CLEAR

Most Sav Ineligible Aliens Are Not A Bia Problem

A significant majority (84 percent) of the State and local

officials contacted expressed the opinion that paying benefits to

ineligible aliens was not a big problem. Half the local

eligibility workers and virtually all officials in INS' District

Offices, on the other hand, did believe it to be a big' problem.


Ståte and local officials offered as evidence low' quality control

(QC) error rates due to citizenship (including alien status).

Rates were available (although for different periods) for three

human services programs in four States. These States, shown in

Chart 1, all used manual verification methods for these programs.


These, consistently low QC error rates suggest that the numers of

ineligible aliens who slip through current verification

procedures may be small. This interpretation, however, is

questioned by INS based on its view that low QC error rates

reflect inadequate manual verification in the QC, as well as in

the regular eligibility procedures. '





                                  6

'-,
      "




                                            Chart 1

              Oualitv Control Error Rates Related To citizenshiD/Alien status


                                            PROGRA
          STATE                    AFDC             FOOD STAMPS        MEDICAID
                                    %                    %                    %


          Illinois                 0.14                 0.8                  0.1
          10/84-3/85)
          New York
                0.0                  0.01 *               0.1
          (10/83';9/84 )
          Texas                    0.04                 0.08                 0.09
          (10/84-9/85)
          Washington               0'.04               ' 0.04                0.0
          (7/84-6/85)
          *       This figure
   includes a category of "other errors" as

                  well as citizenship errors.
          Ineliaibles Seen As UnlikelY To Apply

          Three-quarters of the State and local officials said they were

          aware of no evidence that illegal aliens are likely to apply.

          All the INS officials, plus a handful of others, disagreed. Most

          evidence cited by both sides was anecdotal or based on personal

          experience. However, to support their belief that illegal aliens

          were likely to apply, officials from INS and agencies using

          automated methods cited rates of denials for ineligible alien

          status. For example, local officials in two States using SAVE

          reported 5 percent and 6 percent denial rates among alien

          applicants, for UI and AFDC respectively. These rates, ho~ever,

          were based on the percent of denials' among alien applicants only.

          The denial rates are much smaller when based on total number of

          all applicants as shown below.


          Chart 2 presents data provided by UI agencies in eight States and

          human services agencies in six States which show the percent of

          their denials based on alien status. Al though data were not

          available for comparable time periods, these denial rates are

          listed to show the range of rates for these two types of

          programs. All data are based on using SAVE, except those for

          California UI and 
 for Texas and New York AFDC and Medicaid. All

          these rates are consistently low and appear to support the view

          that ineligibles are not likely to apply.



                                                7
'\




                                            Chart 2

          Percentaae Of All UI ADDlicants And AFDC Or Medicaid A~plicant



                                 l-
                  Denied Because Of Alien status In Eight States*


                                                         % AFDC Or Medicaid
     STATE                 Applicants Denied             Appl icants Denied
     California                 0.38% **	                      0.12%
     Colorado                    .58	                              .01
     Florida                     .71	                              N.A.
     illinois                    .19	                              .01
     New York                    .05                               .01**
     Texas                       .31                               .04 **
     Washington                  .02	                              .00
     Wisconsin                   .02	                              N.A.

     *	          Time periods varied from one month to one year during
                 1984, 1985 and early 1986. All Washington data and
                 Texas UI data are for local projects.
     **	         These denial rates are not based on using SAVE.
     Based on experience in Illinois with the UI program, INS has

     estimated that once SAVE is in operation, .69 percent of

     applicants will be "illegal" aliens, compared to an estimated 2.5

     percent before SAVE is used. All but one of the above denial

     rates are substantially lower than the. 69 percent estimated by

     INS as the proportion applying after SAVE is implemented. This

     is true whether or not SAVE was used. The range of denial rates

     for human services is even lower than the range for UI which also

     has a very low upper limit of less than one percent. In the

     absence of evidence that SAVE is less efficient in screening out

     ineligibles among human services applicants, this suggests that

     the problem of ineligible alien applicants may be even smaller

     for these agencies than for UI agencies.


     State trend data which would permit comparison of denial rates

                after SAVE are not available. It is, therefore, not

     before and 


     possible to gauge the effect of SAVE on denial rates.



     INS Officials See Big Problems In Terms Of Dollars


     INS officials emphasized that the size of the problem can also be

     measured in terms of dollars. One described it as one of the

     major problems in the united States today. Based on its

     statistical proj ection that 2.5 percent of recipients of benefits

     are illegal aliens, INS believes that SAVE would result in $2.8

     billion in cost avoidances if various agencies in all fifty

     States participated. The estimate by INS of the proportion of


                                               8

    ,;
~




         illegal aliens among beneficiaries is based on the assumptions

         that 2.5 percent of the population are illegal aliens and that

         illegals will apply for and successfully receive benefits at the

         same rate as all other groups. These assumptions have been

         questioned by various Federal and state officials.

                                              , during congessional

         The Congressional Budget Office (CBO) 


         consideration of IRCA, estimated annual savings to the Federal

         government for 1989 of $25 million (less $10 million or more

         annual costs) resulting from mandating SAVE in all states. This

         is significantly lower than INS' estimate of savings. However,

         the estimated savings for several UI agencies with SAVE projects

         suggest that the problem of inappropriate dollar payments may be

         substantial at least for UI. It should be noted, though, that

         denials for UI are not based on alienage alone, but on current

         authorization to work. If the alien is eligible under PRUCOL,

         but is not currently authorized to work by INS, the UI claim is

         denied. In Florida, a u.s. District Court ruled in a class

         action suit that many denials for UI were based on improper

         termination by INS of work authorization, triggered by SAVE

         inquir ies .
         Savi~gs proj ected by one state i s human services program suggest a
         less significant problem in terms of dollars for human services.

         Savings for various programs are shQwn, together with estimated

         costs of implementing and/or operating SAVE, in Chart 4 on page

         1i.
         Comparsion of how SAVE vs. traditional manual verification

         methods address the problem of ineligible alien applicants is a

         discussed under cost benefits below.



                                                   STATE RESPONSES TO SAVE


         sixteen States Have Used SAVE


         In thè last 4 years, INS staff have actively promoted SAVE as a

         way to save money by reducing the number of ineligible aliens

         receiving benefits and as a, way to remove the "magnet of

         benefits" which is said to attract illegal aliens to this

         country. INS appears to have first targeted UI agencies in

         States with large alien populations; human services agencies have

         been a second target in the same States.


         Resul ts of these efforts in the eight States contacted are shown

         in Chart 3 below, including State and local pilot proj ects and

         extended SAVE projects by type of program. In addition to these

         eight early States, eight others have also used some form of

         SAVE. These include Virginia and the District of Columbia (D. C.)

         which have had UI pilots for several years and more recently,

         according to INS, UI agencies in Idaho, Indiana, and Montana, and


                                                              9

"
    "




             both UI and human services agencies in Hawaii, Louisiana and

             Mississippi. The three jurisdictions of Puerto Rico, Virgin

             Islands and 
 Guam are also participating. Twenty-seven agencies

             in these states and jurisdictions have had SAVE projects.



                                           . Chart 3
                  Dates Of Earlv pilot Or Extended SAVE Projects Bv TVDe

                             Of Program In States Contacted *


                                                        Human Services (AFDC

                              UnemDlovment Insurance     Food StamDs. Medicaid)
                      Pilot          Extended           Pilot            Extended
Illinois            pre-10/83       10/83-present      11/85-present
Colorado              1983          7/84 -present       5/83-6/83
California                                                              7/84-present
Florida                                                 pre-1983        1983-present
                     6/84-9/85 10/85-present
Texas               10/85-11/85 7/86-present**
New York             4/85-6/85
Washington          10/85-12/85**                      8/85-9/85
Wisconsin              l/85         l/86-present       2/85-3/85
            *    Pilots are defined here as initial projects to try out

                 INS' automated verification, either on-line or through

                 hàrid delivery or mail. Extended SAVE projects are'

                 expanded or continuing efforts on a more formal basis.

            **   Projects limited to selected cities or offices.

            These projects include some using an on-line system çonnected to

            INS' SAVE data base and many using hand delivery or mail to INS.


            Aaencies Slow To Use SAVE: Half With Pilot Projects Continue Them


            States have been generally slow to use SAVE. This has been

            especially true for human services agencies. The fact that only

            five human services agencies in the States contacted have had

            pilot projects reflects, in part, ,INS' early focus on UI

            àgencies; that only two of these States have continued them

            suggests that human services agencies have had less positive

            experiences with Save than UI agencies. By contrast, INS

            succeeded in getting UI agencies in eight States and D.C., to

            participate early in pilot SAVE projects.

            Once States tried SAVE, about half continued to participate,

            usually in their UI agencies. Of the 12 agencies in the eight

            contacted States which have tried some version of SAVE, seven

            agencies extended their proj ect beyond the pilot phase. They


                                             10




        I
"
    "




        included UI agencies in Colorado, Florida, Illinois, Texas and

        Wisconsin, and human services agencies in California and

        Colorado. The UI agency in Texas has extended its pilot beyond

        Houston to E1 Paso, Dallas, Fort Worth and San Antonio, despite

        some conCérns over continuing litigation.



                               ADVANTAGES OF SAVE

        Respondents in agencies which have continued their use of SAVE

        were generally satisfied, citing such advantages as the quicker

        response of an automated system, as well as its cost savings and

        deterrent effect. One State UI official said, "Why drive a Ford

        when a Cadillac is available."


        Users, Li~e Ouick ResDonse For Those Aliens In The System
        Respondents noted that if the A-number is in the SAVE data base,

        INS' response is virtually inst~ntaneous. Transmittal of ,the INS

        response by the state agency to its local requesting office can,

        however, take a few minutes or several days, depending on the

        tape of communication used, e.g., computer, telephone, hand

        delivery or mail. In, any case, services are expedited when SAVE

        in its automated form can verify an alien's legal status more

        quickly than manual methods. Five agencies using SAVE and two

        INS District Offices report, however, that computer downtime

        occurs occasionally. .

        Cost Benefits Of SAVE Claimed. But Data Are IncomDlete

        Savinas A Ma;or Sellina Point For SAVE. A key argument in INS'

        efforts to promote SAVE among the States has been to point out

        that it saves more money than it costs. An INS analysis

        estimates the initial costs of installing SAVE at about $2,500,

        with annual maintenance costs near $25,000. INS projects that

        annual data processing costs, if all 50 States were using SAVE,

        would come to only about $l.35 million. This would be '

        insignificant compared to INS' estimate of $2.8 billion in

        savings from SAVE, if both estimates are based on reasonably

        complete and accurate information. But INS i cost estimate did
        not include labor costs. Also, its estimate of savings is partly

        based on State reports 
 which do not identify how much of their

        savings from SAVE would have also resulted from traditional

        manual methods which require no additional costs.


        The Congressional Budget Office (CBO) estimated that SAVE would

        cost at least $10 million to run annually. By their
        calculations, a net savings of $15 million in 1989 and $10

        million annually thereafter might still result from implementing

        SAVE in the fifty States. But CBO points out that the cost of

        anticipated litigation was not included in the calculations. Nor


                                       11
'\
     ,~




          did CBO include the labor costs of running SAVE. Consequently

          CBO called its estimates of $10 to $15 million savings "very

          uncertain. "
          Estimates Based On incomplete Data. The available data on costs

          attributed, to SAVE are incomplete in that they often do not

          incl~de costs af labor and never include the costs of litigation.

          The data on savings are incomplete in that they do not show what

          savings resulting from the use of SAVE are above and beyond the



                         , ,
          savings that would have been, achieved by the use of traditional

          manual methods.
          One of the' few studies, if not the only one, comparing the

          relative successes of SAVE and manual methods of alien

          verification was conducted by the Illinois Department of Pulic

          Aid. After a 6-month study of AFDC applicants at four local

          offices with many foreign born applicants Cook County, the agency

          concluded that the small additional savings which would have

          resulted from using SAVE, rather than manual methods did not

          warrant the diversion ,of staff from larger sources of error.


          Best Available Data Presented With Oualifications. Despite the

          serious limitations of most of the estimates, they are presented

          as the best, avaiiable information. This is the same information

          which INS and some states use to support SAVE and other States

          use to question it. The estimates require careful qualification

          so they are not misleaQing.


          As shown in Chart 4, eight of   ten agencies for which saving and

          cpst estimates were available   reported savings greater than

          costs. Reported gross savings   ranged from $29,080 for five UI

          centers in Washington to $4.2   million for Illinois UI.' Estimated

          costs ranged from $5,694 for Wisconsin UI to $1,13,000 for Florida
          UI in its start-up year. The cost estimates by some of these

          State agencies, however, apparently did not include labor costs.

          Data processing as well as labor costs may vary by type of

          project. Also, the costs of litigation, which as the CBO report

          indicated are ~ifficult to determine, are not included.


          On the basis, of these limited data, eight of the agencies,

          including one human services agency, estimated savings greater

          than costs from the use of SAVE ranging from $13,000 to just over

          $4 million. Two State UI agencies, on the other hand, said that

          SAVE had not been cost beneficial for them. Washington UI

          reported that the small savings achieved in its pilot were more

          than offset by the estimated costs of detection and collection.

          New York'UI, based on its pilot SAVE'project, judged the use of

          SAVE would not be cost effective for its program, although it did

          not make its figures available.





                                           12
"
    "




                                                Chart 4


                      Estimated Annualized Savinas And Costs, Associated
                            with SAVE ReDorted By State Aaencies

                                                                       Est. Savings
                             Est .    savings    Est. Costs         . Less Est. Costs
        Colorado UI          $       279,700     $ 13,200            $ 265,SOO
         " Human Svcs.                33,000       20,000,                13, 000
        Florida UI                   7S0,000*     113,000                667 ,000*
        Illinois UI              4,200,000         30,000             4,170,000
        New York UI	                  N.A.          N.A.          (judged ineffective)
        Texas (Houston) UI           666,000      100,000	               666,000
        Washington: 5 UI              29,OSO       15,70S plus    (net loss estimated)
          Centers	                              collectiçmcosts
        Wisconsin UI                  52,000        5,694	                46,306

           *	   These figures do not include a retroactive reduction in savings
                based on a recent court ruling that 140 claims were
                inappropriately denied due to INS actions.

           In summary, those estimates have two weaknesses: the, SAVE cost

           data are usually incomplete, and comparable estimates of costs

           and savings for traditional manual methods are not provided.

           ~AVE Deters some, Ineliaible ApDlicants


           INS believes that SAVE also deters illegal aliens from applying

           for 'benefits, and thereby reduces losses. According to -INS, the

           rate of illegal alien applicants will drop from a level of 2.5

           percent to 0.69 percent once the word gets out. Several States

           agreed that SAVE was a deterrent, but data on any incremental

           deterrent effect of SAVE over and above the deterrent effect of

           tradi tional methods were lacking. Other agency and advocacy

           group offi~ials reported their belief that some eligible ~liens

           are also deterred from applying f~r benefits out of fear.


           One potential result of deterrence, acknowledged by INS, is that

           some ineligible aliens may avoid a SAVE check by claiming

           citizenship. This points to the need for a parallel effort by

           those user agencies which require proof of citizenship, to

           prevent the use of fraudulent birth certificates.





                                                   13

\




                            LIMITATIONS OF SAVE

    States Report Many Aliens Are Not In The Data Base

    A major problem for states is the common perception that' many

    aliens are not included in SAVE's data base. Nearly four-fifths

    of all respondents saw the lack of accuracy and oompleteness of

    INS' data as an obstacle to its use by more agencies. INS

    officials indicated that recent entrants, as well as persons who

    entered the U. S. prior to 1956, will not be in the SAVE system.

    However, various States report that the SAVE file is incomplete

    for other aliens later determined to be legal residents. An

    agency worker expressed a common view that the SAVE information

    should be taken "with a grain of salt." States also noted that

    the status of certain categories of aliens are recorded or

    updated very slowly.
    It should be noted that most illegal aliens are not in the SAVE

    data base. By definition they are undocumented. Since some

    undocumented aliens who become PRUCOL are still not entered into

    the system, SAVE provides no immediate help in such cases.


    SAVE Lacks PRUCOL Information

    A major concern, especially of human services agencies and

    advocacy groups, is that SAVE does not assist agencies in making

    eligibility determinations based on PRUCOL. The primary

    verification data provided by SAVE includes the limited

    information listed on page 4, but does not indicate whether the

    alien has a status which helps the agency determine whether

    he/she is permanently residing under color of law. Similarly,

    INS' secondary verification response categories on its Document

    Verification Request Form (G-845) are oriented to UI agencies

    rather than to human services agencies: three of the six response

    categories have to do with employment authorization but

    none of them have addressed PRUCOL questions directly. Recently,

    however, new G-845 Forms have been prepared which will provide

    additional boxes indicating whether or not INS anticipates

    actively pursuing expulsion of the alien at the present time.


    Nèvertheless, for many aliens who apply for AFDC, Medicaid or

    Food stamps, SAVE is relatively useless. Information on PRUCOL

    status is also likely to become more important to UI agencies as

    court challenges to UI determinations result in further

    clarification of "who is eligible as PRUCOL."


    Al though some keys to a PRUCOL determination are displayed on the

    SAVE screen, the many possible combinations of these data

    elements make it virtually impossible for a State worker to make

    PRUCQL decisions. In response to a question about the

    feasibility of adding å specific PRUCOL data field on the ASVI

    screen, INS officials said that INS could create a "formula"


                                     14
'l




     based upon country of birth, entry date and admission class that

     aliens.. .
     could indicate the PRUCOL status for about 80 percent of such



     Secondarv Verification Is Freauently Reauired

     If SAVE cannot find the alien's record 'and/or confirm the alien's

     status in the data base, the screen indicates that a secondary

     verification is needed. When SAVE shows no record of' the A-

     number provided by the State or local agency, the complete INS

     data base could be further checked by name and date of birth, but

     INS does not permit State and local agency workers to do this.

     Some agency workers object to this limitation, but INS says that

     broader access violates the alien's right to privacy. The most

     disturbing fact about secondåry verifications is the large number

     that must be requested. In the eight States queried, six
     agencies were able to provide' information on their secondary

     verification rates. Rates for these State and local agencies

     ranged from 11 percent to 75 percent of alien applicants for whom

     a secondary 
 check beyond the initial SAVE query was necessary.

     The rates reported by the agencies for different periods of time

     are as follows: .
                                                           Secondary
                                                       Verification Rate

                                                            (By % )


     CA C Orange Co. Human Services)                          75%

     CO (UI)                                                  11

     FL CUI) *                                                43

     IL CUI)                                                  30

     NY (UI)                                                  11
     WA (UI)                                                  38 '
     * Verifies only aliens without "green cards. It
     While the rates vary considerably, most of the agencies reported

     that 30 percent or more ,or their initial inquiries to INS

     required secondary verification. For human services programs in

     Orange' County, the secondary verification rate was a reported 75

     percent. However, the Government Accouting Office (GAO) has

     recently reported lower rates for human services in Colorado and

     Puerto Rico of 24 percent and 9 percent respectively for the 6­

     month period from October 1, 1986 to March 31, 1987 (Systematic

     Alien Verification System Could Be Improved, September 1987). It

     also reported rates of 69 percent, 19 percent and 9 percent for

     UI programs in Florida, Illinois and Colorado respectively.


     Three maín reasons for doing a secondary verification are:


          1.     There is no record of the alien's A-numer in INS i data


                                       15
    "
        -',

"




                           base ( e . g., the al ien entered the country many years
                           ago or very recently and an A-number was not entered);

                   2.	     There is an A-number in INS' 'data base, but the SAVE
                           display shows "¡nstitute Secondary Verification";
                   3 ..	   There is an A-number in the data base, but there is a
                           discrepancy between the information submitted 'by the
                           agency and information sent back by INS via the SAVE

                           display.. These discrepancies are usually due to one of

                           the following:
                                inaccurate information is submitted

                                inaccurate information is sent back

                                outdated information is sent back

                                information sent back by INS is insufficient for

                                the agency to determine if the alien is eligible

                                under PRUCOL

              GAO also reported on the reasons why secondary verifications of

              93 eligible aliens were made at Denver and Miami INS offices,

              They included the need for a special code for Cuban-Haitian

              entrants 'authorized to work (47 cases), incomplete SAVE data (28

              cases), additional data needed for UI (7 cases), clerical errors

              (7 cases) and PRUCOL could not be determined (4 cases).

              Some of these problems may be more easily corrected than others.

              For e~åmpie, INS intends to make a one-time update of its data

              base to add a code for Cuban-Haitian entrants. In the case of

              PRUCOL there is often more, information in' the data base' than is

              currently shared with the State through SAVE.


              Because the secondary verification is done by mail and may

              include a manual search of hard copy files by INS, it generally

              took 2 weeks and, sometimes, up to a 'month or more. This ha~
              caused concern among some State UI agencies which are required to

              pay claims within 14 days in many cases. In its september 1987

              notice of verificatio~ procedures, INS states that response to

              secondary verifications should be returned within 7 to 10 days

              and no later than 21 work days. INS has also 	
                                                             commented that

              these procedures ensure that no eligible applicant is denied

              benefits.
              In sum, many state agencies ~ere concerned about secondary

              verification for three reasons: first, it converts a purportedly

              automàted process into another resource-consuming paper process;

              second, it adds weeks to the eligibility determination pr9cess at

              a time when agencies are being pressed to speed it up; and last,

              it raises ,further questions about the quality and completeness of

              data in the INS data base.




                                                 16
'\
     .~




                           WHY STATES WERE RELUCTANT TO USE SAVE

          Aaencies Were Supportive Of SAVE ConceDt But Preferred Current

          Manual Methods

          Nearly everyone agreed that the SAVE concept is a, good one and

          has the potential for reducing inappropriate payments. However,

          most respondents from, agencies and advocacy groups saw maj or

          problems in its implementation. Respondents in general and State

          agències in particular preferred to see traditional, non-

          automated methods continued. Four-fifths of all respondents,

          contacted before IRCA was enacted, opposed making SAVE mandatory.


          Most agency respondents felt that the mere fact that they ask

          applicants for documentation is enough of a deterrent. The low

          QC error rates were also cited as a reason for satisfaction with

          non-automated procedures.
          Many state Aaencies Were Concerned About Costs And Liability

          Under SAVE


          Another important reason States were cautious about changing to

          automated methods was concern that automation would cost more

          than INS says; some doubted also that savings would be as great

          as estimated.


          It was pointed out by UI officials that any savings derived from

          using SAVE will accrue to a state's UI Trust Fund and will not

          offset cpsts to the State. Other concerns included the costs of

          co~rt suits brought by advocacy groups on behalf of applicants

          who feel they were wrongfully denied benefits. The States know

          such suits. '

          that they, and not INS,' are potentially liable for the costs of



          Also, despite INS' explanations of how it has computed its cost

          savings estimates, some agencies in large States are not yet

          convinced of the accuracy of these estimates. Unemployment

          agencies in Washington and New York States and ,the human services

          agency in Illinois have been concerned that results of their

          pilot proj ects failed to show the expected savings. Agencies in

          several States have encountered adverse publicity because of

          SA VE .

          Since the new immigration law provides for 100 percent Federal

          reimbursement for costs to State agencies of implementing and

          operating a SAVE system, concerns about program costs should be

          less of an issue for States but a continuing one for Federal

          programs. Costs to the State of litigation resulting from

          challenges to denials of benefits based on alien verification

          through SAVE, however, would not qualify for Federal

          reimbursement.

                                           17
~




                               CONCLUSIONS
    This inspection found that most state agencies contacted were

    satisfied with their manual methods of verifying alien

    eligibility' and believed they were effectively coping with what

    they see as a relatively minor problem of ineligible aliens.

    While some state agencies which have tried SAVE like it, most

    states, regardless of their SAVE experiences, perceive major

    problems with INS' alien data base, including incomplete

    information' and the absence of PRUCOL data from the SAVE

    response. These and other concerns have made many agencies, .

    especially human services agencies, reluctant to participate in

    SAVE. While data provided by most SAVE projects suggests'that

    SAVE is cost-beneficial, the cost data are incomplete and many

    State agencies are not convinced that savings from SAVE' are much

    different than savings from traditional methods.

    The new Immigration Reform and Control Act of 1986 has added, a
    new dimension to the findings of this inspection. INS pad until

    October 1987 to make a verification system available to' States,

    and States have until October 1988 to begin complying with the

    requirement to use a SAVE system (or justify a waiver). This

    allows time for INS and the affected Departments (HHS, Labor,

    Agriculture, Housing and Urban Development and Education) to work

    toward developing a system that will most effectively meet the

    needs of user agencies. INS has establ ished an interagency task
    force for that purpose. HHS and Food stamp agencies are

    assessing their quality control methods in six large States and

    will provide INS with information on SAVE to help them increase

    the utility of SAVE.





                                   18

    "
"




                                        APPENDIX
                        COMMENTS ON DRAFT REPORT AND OIG RESPONSES

        HHS comments on the draft report were received from the Assistant

        Secretary of Planning and Evaluation (ASPE), the Administrator of

        the Family Support Administration (FSA), the Administrator of the

        Health Care Financing Administration (HCFA), and the Commissioner

        of Social Security (SSA) ~ Also, comments were received from the

        Inspectors General of the Departments of Labor (DOL), Education

        (ED), and Housing and Urban Development (RUD); and from t~e

        Commissioner of the Immigration and Naturalization Service.

        More comments were addressed to the issue of cost-benefits than

        to any other issue. Cost-benefit data were desèribed 'by ASPE and

        FSA as incomplete due to the lack of labor costs, and by FSA and

        DOL as inconclusive due to the lack of any comparison with the

        savings and costs of traditional manual methods. According to

        DOL, State Emplqyment agencies indicated that ~... in most cases

        normal UI integrity operations, i.e., benefit payment control,

        eligibility review program, etc., would have detected such alien

        documents. II Both ASPE and FSA noted a lack of critical

        discussion of INS' cost savings estimate. They were joined by

        DOL in cautioning against misleading with incomplete, information.


        OIG reSDonse. We agree that the data is incomplete and have

        included a new section detailing the gaps in the evidence on

        cost-benefits and have deleted the term, "net savings".


        The effectiveness of manual verification systems used by State

        agencies was'the subject of differing views. According to :SSA,

        IRCA requirements that SAVE be used should not affect the low QC

        error rates currently reported. These low error rates were seen

        by INS as a reflection of ineffective manual verification. INS

        notes that"... the variety of INS documents in' use, coupled with

        the availability of fraudulent or counterfeit documents, demands

        that INS r,emain a vital screen in any verification procedure."


        OIG reSDonse. W~ have noted the paucity of data on which to

        compare the relative accuracy of agency methods of verification

        with INS' SAVE methods. ' We have also noted INS i view of the

        relationship between agency methods and their low QC error rates.



        Several comments questioned which State agencies actually had

        SAVE pilot projects. The DOL advised that the California UI

        agency never implemented its pilot project plan. It expressed

        the view that the draft report appears to confuse SAVE with

        secondary verification. ASPE commented that Florida had no pilot

        UI proj ect .

                                           19.

     "
,"




         OIG response. We checked with UI agencies in the two states and,

         as a result, deleted California from the list of UI pilots, while

         retaining the Florida UI pilot. We clarified further that the

         SAVE pilots indeed included both automated projects and manual

         versions similar to secondary verification. Moreover, INS at the

         time viewed these manual projects as SAVE pilots.



         A comment by ASPE questioned the use of preliminary data from

         Florida UI to suggest a deterrent effect on applicants.

         OIG res90nse. We deleted the Florida data because of a court

         decision that UI claimants had been denied when INS improperly

         terminated their work authorization.


         The inability of ASVI to provide PRUCOL information was the

         subject of several comments. "The utility of the SAVE system for

         human services agencies," FSA commented, "will depend largely

         upon securing timely information about this group of aliens...".

         According to INS, it has"... never been required to def ine and

         does not provide PRUCOL to represent a class of alien or alien

         status. For this reason, the status verification system should

         not and cannot identify these types of aliens. This issue

         requires careful consideration by the agencies concerned, but is

         not a basis on which to judge the efficacy of the SAVE program."

         A change in wording was suggested by SSA to show that individual

         programs and not INS have the responsibility to make a PRUCOL

         determination. It was pointed out by HCFA that there is now only

         one definition of PRUCOL for Medicaid, the same as the one for

         SSI.
         OIG reSDonse. We are making no change in our finding that many

         State agencies felt the lack of PRUCOL information in AS 

                                                                    VI to be

         a serious limitation. It is clear to us that state agencies use

         different criteria for judging SAVE than INS does. We did change

         our wording to show that Medicaid now used only the SSI

         definition and that the responsibility for PRUCOL decisions is

         the State agency's.



         Several comments focussed on the process of secondary

         verification. Concern with the timeliness of secondary

         verification responses was expressed by DOL which noted that, as

         a result of a court case, any and all initial UI claims for

         benefits must be paid within 14 days of an eligible claimant's

         first compensable week. On this point, INS noted that "secondary

         verifications are a priority of the Service and the time required

         to conduct these checks is always within an acceptable window

         period. These procedures also ensure that no applicant is denied

         benefits who is eligible."


                                         20
       ,,
'. .        1',",\




                     OIG resDonsè. We have included a reference to INS i notice of
                     verification procedures of September 1987 which states that

                     responses to secondary verifications should be returned within 7


                     of these procedures. '
                     to 10 days and no later than 21 work days. We also noted INS'

                     view that no eligible applicant should be denied benefits because



                     Adverse publicity about using SAVE was pointed out as a possible

                     disadvantage of SAVE nQt included in the draft report. . It was

                     noted by DOL that California UI did not implement its SAVE pilot

                     because of threatened legal action and adverse publicity, and

                     that Florida also experi~nced adverse publicity after denials of

                     UI claimants were reversed by the' court.
                     OIG reSDonse.    We included a reference' to adverse publicity.


                     HFCA, noting that the draft was silent on specific remedial

                     actions to increase the accuraåy and comprehensiveness of SAVE,

                     recommended SAVE, be expanded to include certain persons who

                     receive ,amnesty and thus become eligible for partial Medicaid

                     benefits. . HCFA and FSA both urged that Social Security numers

                     be included on the AsvI display. HCFA also believed "that a

                     thorough and careful evaluation of the SAVE system must be

                     undertaken to determine whether it is indeed cost effective and

                     efticient, especially in States with small numbers of aliens".


                     OIG reSDonse. We are including these recommendations in our
                     comments. Due to the recency of IRCA, the report contains no
                     recommendations other than to encourage dialogue between INS and
                     other agencies to increase the utility of SAVE by more closely
                     meeting   'the users' needs.


                     INS comments that it "has been working closely with

                     representatives of the five affected entitlement disbursing

                     agencies to develop a systematic approach to the required

                     expansion of an alien status verification program, and to refine

                     the technical requirements to met these agencies' needs."


                     OIG reSDonse. We reiterate our support for interdepartmental

                     cooperation to increase the utility of SAVE.





                                                      21

                                                                                          i
